        REGULATION OF PUBLIC
      UTILITY HOLDING COMPANIES

                             EXECUTIVE SUMMARY
We found that the Office of Public Utility Regulation (OPUR) staff were
knowledgeable of the Public Utility Holding Company Act of 1935 (PUHCA or Act)
and eager to assist companies with regulatory issues. The staff worked effectively
with each other and regulated companies to resolve issues and prioritized tasks
appropriately.
Although OPUR strove to meet company deadlines, we found that OPUR does not
generally establish target dates for issuing notices and orders, which resulted in
delayed Commission approval of company transactions. Additionally, Commission
responses to 60-day action letters were not timely.
We also found that the number of accountants and financial analysts in OPUR may
not be sufficient to address significant increases in workloads. We recommend that
OPUR update or eliminate obsolete rules and forms, ensure compliance with
Commission orders, establish target dates for completing tasks, more proactively
monitor exempt companies and provide additional guidance to registered holding
companies (registrants) on PUHCA compliance issues. We also identified several
suggestions to enhance OPUR’s operational effectiveness.
Congress has considered the repeal of PUHCA since 1983. These recommendations
may no longer be relevant if PUHCA is repealed.
OPUR generally agreed with the report’s recommendations.



                         OBJECTIVES AND SCOPE
Our objective was to evaluate the operational effectiveness and efficiency of OPUR’s
activities, including its oversight of companies subject to regulation, the examination
process and office organization.
During the audit, we interviewed OPUR staff, outside counsel and industry groups,
and surveyed a sample of registrants. We reviewed relevant documentation,
including a sample of orders, notices, no-action letters and 60-day action letter files1.
We also observed an on-site examination of a regulated company. The audit was


1
    A description of 60-day action letters is found on page 6.
                                                                                                                                                             Page 2


performed from May 2003 to August 2003 in accordance with generally accepted
government auditing standards.



                                                        BACKGROUND
Public Utility Holding Company Act
OPUR is part of the Division of Investment Management and administers PUHCA.
PUHCA generally bars non-utilities from owning utilities and prohibits public utility
holding companies from owning utilities in different parts of the country. The Act
was designed to protect consumers and investors against abuses by holding
companies.
A holding company under PUHCA is defined as a company that directly or indirectly
owns 10% or more of a gas or electric public utility. Companies that come within
this definition must register with the Commission or apply for an exemption under
the Act.
Registrants typically operate in multiple states and are subject to Commission
regulation. This regulation focuses on the corporate structure of the holding
company system, affiliate transactions between subsidiaries of the holding company
system, and the system’s capital structure. OPUR examines annual and periodic
reports of registrants and their subsidiaries, approves company transactions,
performs on-site examinations of these companies, and issues no-action letters.
Most holding companies that qualify for an exemption do so because both the
holding company and its utility subsidiaries operate solely or largely within a single
state. OPUR currently exercises little oversight over exempt companies.
Examination Program
The examination program allows for periodic on-site inspections of the registrants
(currently 28) on a five-year cycle. Thus, OPUR performs five or six examinations a
year.
The examinations focus on the methods used to allocate costs of goods and services
among associate companies, cost determination procedures, accounting and billing
policies, quarterly and annual reports of the registrants, and operational efficiencies.
By identifying misallocated expenses and inefficiencies, consumer savings from
examinations approximated $31.8 million in fiscal year 2002.2 OPUR approximated
the current annual cost of examinations to be $1.035 million.
Repeal
The Commission has testified in favor of repealing PUHCA at various congressional
hearings and supported its repeal since 1983. During our audit Congress was again
considering the repeal of PUHCA. These recommendations may no longer be
relevant if PUHCA is repealed.


2
    According to the Commission’s 2002 Annual Report, page 65.

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 3



                                                     AUDIT RESULTS
We found that OPUR staff were very accessible to the registrants, allowing them to
informally discuss proposed no-action issues and other concerns with OPUR.
Overall, the OPUR staff were knowledgeable of PUHCA and eager to assist
companies with regulatory issues. OPUR staff were also collegial, worked effectively
with each other and regulated companies to resolve issues and prioritized tasks
appropriately.
Although OPUR strove to meet company deadlines, we found that OPUR does not
generally establish target dates for issuing notices and orders, which resulted in
delayed Commission approval of company transactions. Additionally, Commission
responses to 60-day action letters were not timely.
We also found that the number of accountants and financial analysts in OPUR may
not be sufficient to address significant increases in workloads. We recommend that
OPUR update or eliminate obsolete rules and forms, ensure compliance with
Commission orders, establish target dates for completing tasks, more proactively
monitor exempt companies and provide additional guidance to registrants on
PUHCA compliance issues. We also identified several suggestions to enhance
OPUR’s operational effectiveness.
Our recommendations are described in further detail below.


STAFF RESOURCES
OPUR has eighteen attorneys (seventeen full-time equivalents), four
accountants/financial analysts and two administrative support staff (see Appendix
A). During the review, several staff informed us that staffing resources were
inadequate to handle current workloads, resulting in insufficient time for
rulemaking, monitoring exempt companies and other tasks.
If provided additional hiring authority, OPUR would like to hire two additional
accountants/financial analysts and two additional attorneys.
Accountants/Financial Analysts
The number of accountants/financial analysts has remained at approximately four
since 1983, despite significant increases in related workloads. For example,
examinations, which primarily require accounting and financial analysis skills,
recently increased to five or six a year from two a year. The number of registrants
increased from 14 to 28 between December 1999 and September 2002. In addition,
foreign utility companies are now subject to examinations, requiring further
expansion of the examination program. OPUR commenced its first foreign utility
company examination in September 2003.
Attorneys work on examinations and review financial statements, for cross-training
purposes and also because OPUR lacks a sufficient number of accountants/financial
analysts. Several staff stated that more accountants/financial analysts are needed.
More accountants/financial analysts would enable OPUR to expand its examination
program and address increased workloads.

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 4


             Recommendation A
             If positions become available, OPUR should hire staff with accounting or
             financial analysis backgrounds.
Attorneys
The office has traditionally hired attorneys to perform most of its functions. We did
not find evidence that workloads increased commensurate to the number of
additional attorneys (eight) that were hired between 1983 and 2003, although we did
not extensively analyze this issue.
Some attorneys informed us that they experienced “down time” while waiting for
assignments, such as reviewing company requests for Commission approval of
certain actions. OPUR has little control over when companies file many of these
requests.
Some staff said that more attorneys are not needed while others said more attorneys
are needed to draft rules.
This discussion is for informational purposes. We are not making a related
recommendation with respect to additional attorneys.


RULES AND FORMS
The Commission has issued 110 rules to implement PUHCA. Many of these rules
and related forms are outdated, ineffective or contain requirements that do not
currently serve a useful regulatory purpose (e.g., U-R-1, U-3A-3-1, U-3-A2; U-13-E-1,
U-5-B, and U-12(I)-B, among others)3. Although aware of this issue, OPUR has not
updated many of these rules and forms. According to OPUR management, it lacks
sufficient staff for these updates and the possibility of a repeal of PUHCA has
caused retention problems and affected staff morale.
We believe that OPUR should update the rules and forms in order of priority,
considering the costs and benefits of such updates. OPUR may wish to consider the
following options:
       •     Hold a series of meetings with interested parties (e.g., the PUHCA bar,
             industry groups and registrants) to solicit ideas on what updates are needed
             to the rules and forms.
       •     Issue a concept release soliciting comments from interested parties regarding
             suggestions for revisions to existing rules, updates to forms and elimination
             of requirements.
       •     Decide internally which rules need to be updated and assign rule updating
             tasks to OPUR staff. OPUR staff could prepare the first draft of revised rules
             and forms.




3
    The Commission is able to revise or eliminate all of the forms listed except U-12(I)-B, which is required by
     statute.

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 5


Some rules and forms are currently under review for modification but OPUR has not
set any timeframes for completing the updates. Management informed us it would
take several years to update all of the outdated forms and rules.
             Recommendation B
             OPUR should decide which rules and forms need to be updated and
             eliminated and update (or eliminate) them in priority order, considering the
             options above. OPUR should establish timeframes for completing these
             tasks.


Rule 24 Orders
Rule 24 allows OPUR to request additional information from a regulated company
through an order. OPUR issues approximately 40 orders containing such requests
per year.
OPUR management stated that companies comply with virtually all of its orders.
However, OPUR also informed us that it has no means of ensuring compliance with
Rule 24 orders.
OPUR management stated that an Access database designed to track Rule 24
requests would be useful.
             Recommendation C
             OPUR should track responses to information requests contained in Rule 24
             orders (e.g., by establishing an Access database), as resources permit.


TIMELINESS
Based on a sample of 51 filings4 reviewed in fiscal years 2002-2003, OPUR took an
average of 98 days to publish a notice in the Federal Register (from the day it
received the related filing). The number of days it took OPUR to issue the related
order (from publication of the notice) was 73 days. Typically, notices must be
published in the Federal Register for 25 days prior to issuing an order. Additionally,
companies must be in compliance with all state and federal requirements before
OPUR can issue an order.
Although OPUR staff strive to meet company deadlines, on occasion, companies
have foregone lower interest rates as result of delayed Commission approval of
certain transactions.
To ensure consistency, an important agency criterion, OPUR’s senior management
review and approve many filings and no-action letter requests. This has resulted in
processing delays. Additionally, although OPUR prioritizes filings containing
deadlines (e.g., for companies that need approval of certain transactions by a
particular date) and generally meets the deadlines, filings with no deadlines may

4
    The original sample comprised the Commission’s 60 most recently issued orders, based on the Office of
     the Secretary’s June 2003 listing. Nine orders were deleted from the sample due to incomplete
     information (see recommendation K).

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 6


not be processed timely. Processing delays also result when companies send
incomplete filings or request that OPUR delay issuing notices or orders.
Delays in reviewing and making a decision on applications have also led to
regulation by inaction. For example, OPUR’s reluctance to make decisions on
certain complex issues has resulted in inaction for lengthy periods of time (e.g., two
years). During this time, the company at issue is permitted to engage in the activity
in question.
According to OPUR staff, many filings that OPUR receives are complex or novel,
requiring additional review and research. For these reasons, processing all notices
and orders within a set timeframe may be difficult.
Two senior staff said that OPUR should issue a notice in response to a routine filing
within two weeks, provided the filing is complete and the staff agree it is routine.
Several staff believed that establishing target dates for completing tasks could
shorten processing times. We believe timeliness could be improved as follows:
      •      Assign all filings to staff within a set time (e.g., within one week of receipt).
             Sometimes OPUR takes several weeks to assign filings.
      •      Complete initial reviews of all filings within a set time (e.g., within two
             weeks of assignment).
      •      Set target dates for issuing notices and orders, on a case-by-case basis, upon
             completing the initial review.
      •      Track the number of days to issue notices and orders, from the date the filing
             is complete. (OPUR began tracking this in September 2003.)
      •      Document the cause of delays and corrective actions.
             Recommendation D
             OPUR should establish timeframes for assigning, reviewing and issuing
             notices and orders, as discussed above. OPUR should also track the number
             of days to issue notices and orders, from the date the filing is complete.


60-Day Action Letters
Companies may request Commission approval of certain actions using a streamlined
review known as the 60-day action letter process. OPUR has delegated authority to
approve these requests. OPUR has 60 days to respond from the date it receives the
request, provided that the related filing is “complete” (i.e., it contains all required
information). There may be several additional data requests before a filing is
considered complete. If OPUR fails to respond to a complete filing within 60 days of
receipt, the company is permitted to engage in the requested action. Therefore,
OPUR needs a procedure to ensure that it responds within 60 days.
Based on a sample of 72 responses5 issued under the 60-day process between 1991
and 2003, only 32 responses were issued within 60 days. OPUR’s average response

5
    The original sample comprised the 88 60-day action letter items listed on OPUR’s inventory report dated
     April 25, 2003. Sixteen items were deleted from the sample due to incomplete information.

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 7


time was 101 days. This timeframe, however, does not reflect when the 60-day
letters were complete; OPUR did not record these dates. OPUR also did not explain
in its files why responses took longer than 60 days. Therefore, we were unable to
determine the cause of OPUR’s apparent failures to meet the 60-day deadline.
             Recommendation E
             OPUR should record the date when each 60-day action letter is complete and
             ensure it responds within 60 days of receiving a complete 60-day action letter
             filing.


EXEMPT COMPANIES
There are two types of exempt companies: those that must file annual reports (Form
U-3A-2) with the Commission to show that continued exemption is warranted and
those that are exempt by order. The latter type are not typically required to make
any filings with the Commission, pursuant to the order. Currently, 83 companies
are of the former type and 44 are of the latter.
The Commission has the authority to revoke an exemption if the circumstances that
gave rise to the exemption no longer exist or if it finds that continuation of the
exemption would be detrimental to the interest of investors or consumers. A
company is required to notify the Commission when a change in status makes it no
longer exempt.
OPUR does not generally review annual exempt company filings to determine if such
companies continue to warrant their exempt status. OPUR management indicated
that OPUR lacks the resources to review these filings. Furthermore, Form U-3A-2 is
outdated and does not request the information necessary for OPUR staff to
determine whether a company should remain exempt.
Similarly, we found that OPUR does not monitor whether companies exempt by
order continue to warrant their exempt status. OPUR is currently re-evaluating this
policy.
             Recommendation F
             As resources permit, OPUR should monitor exempt companies (Form U-3A-2
             filers and companies exempt by order) to ensure they continue to warrant
             their exempt status.


EXAMINATIONS
Communications
While we found the examination program to be generally effective, we identified
ways in which OPUR could increase its effectiveness. For example, OPUR could
include a checklist and a “plain English” description of compliance requirements, as




__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 8


well as a list of frequent examination findings,6 on OPUR’s website. Companies we
surveyed said this information would be useful.
             Recommendation G
             OPUR should issue additional guidance to registrants regarding the
             examination process and compliance requirements by posting an examination
             checklist, a “plain English” description of key requirements, and a list of
             frequent examination findings on the OPUR website.


Timeliness
OPUR’s goal is to complete each examination within 9 months of commencing the
on-site examination (fieldwork) of the company under review. Four out of the five
most recently completed examinations met this timeframe, while one took
approximately 10 months. On average, it took OPUR 8 months to complete each of
these examinations.
However, as of September 2003, three of the six open examinations have been open
more than nine months since commencing the fieldwork. One has been open for
more than two years while the other two have been open for at least 1 year.
             Recommendation H
             OPUR should establish time goals for completing the three overdue
             examinations and monitor their achievement.


OFFICE ORGANIZATION
We identified several suggestions for enhancing OPUR’s operational effectiveness,
as discussed below.
Commission Memos
OPUR staff sometimes need to refer to OPUR’s action and advice memoranda to the
Commission for reference or research purposes. OPUR has storage binders that are
accessible to the staff for these items but many of the memos were not stored in the
binders. The staff that draft them typically retain these memoranda in their office.
             Recommendation I
             OPUR should ensure that all action and advice memoranda are available to
             all OPUR staff (e.g., stored in their designated binders or on a shared
             computer drive).
Templates
OPUR staff also informed us that templates (i.e., standard form documents) would
be useful for drafting notices, orders and action and advice memoranda. The

6
    OPUR distributed its list of frequent examination findings to registrants at its 2003 annual meeting. The
    purpose of this meeting is to discuss OPUR’s examination process, industry trends, concerns and other
    PUHCA issues.

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 9


templates would help ensure consistency in document organization (e.g., fonts,
spacing) and standard (boilerplate) language.
             Recommendation J
             OPUR should establish templates for repetitive documents (e.g., notices,
             orders and memoranda to the Commission) and save them on a shared
             computer drive accessible to OPUR staff.


Inventory Reports
OPUR maintains an inventory of items that are awaiting notice and order by the
Commission, as well as quarterly reports of items that have been completed.
OPUR’s inventory report did not consistently provide the dates when notices and
orders were issued. Further, OPUR did not consistently remove completed items
from its inventory or record these items in its quarterly report of completed items.
An OPUR official suggested that the branch chiefs could ensure the accuracy of
OPUR’s inventory and quarterly tracking reports.
             Recommendation K
             OPUR should assign responsibility for ensuring the accuracy of its inventory
             and quarterly reports to its branch chiefs and provide them with the
             necessary information to perform this task.


Correspondence Tracking
On occasion, OPUR has lost correspondence and requests for action mailed in hard
copy from regulated companies. This has led to processing delays. We also found
that incoming mail is not regularly date stamped or logged in as received.
             Recommendation L
             OPUR should date stamp and log into a tracking system (e.g., a spreadsheet
             or Word Document) a brief description and receipt date of incoming mail
             pertaining to OPUR’s regulatory mission.


Document Retention
OPUR staff generally maintain their own files relating to certain OPUR
correspondence (e.g., notices, orders, no-action letters, 60-day action letters,
Commission action and advice memoranda). The types and extent of documentation
maintained by the staff vary. Staff have not received written guidance describing
what documents should be maintained in their files. Additional guidance would be
especially useful to new staff.
             Recommendation M
             OPUR should develop guidance describing the types of documentation that
             should be retained in staff files.

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 10


Document Storage
Because of a lack of space, the staff stored supporting documentation for filings and
certain correspondence (e.g., no action letters) in their offices. Due to a recent move,
however, OPUR now has adequate filing space. Central filing of documents would
improve their accessibility and retention.
             Recommendation N
             OPUR should store supporting documentation and correspondence (e.g., no
             action letters) in a central location.


Data Back-up
Some OPUR staff did not use the Commission’s F: drive to back-up electronic copies
of documents. Files saved on the F: drive are regularly backed-up by the Office of
Information Technology and thus would be available in the event of a contingency
(such as the destruction of OPUR’s office).
             Recommendation O
             OPUR staff should save all electronic files on the Commission’s F: drive.


SURVEY
We surveyed ten registrants and received responses from three. We asked
registrants to rate OPUR in terms of its timeliness, effectiveness in administering
PUHCA, the reasonableness of OPUR’s decisions on requested actions, and its
effectiveness in conducting examinations and helping companies comply with
PUHCA.
Registrants surveyed provided the following comments, which we are providing to
OPUR for its information and possible action. These comments do not necessarily
represent the opinion of the OIG.
      •      OPUR is very accommodating and helpful with ongoing and special
             requests.
      •      OPUR staff are amiable, cooperative and responsive.
      •      There is a lack of consistent and uniform guidance on the governance [cost]
             allocation issue. There is very little uniformity concerning what costs should
             be allocated to subsidiaries and what costs should be retained by the holding
             company. OPUR’s policies in this area seem very inconsistent, confusing and
             subjective.
      •      60 Day Letters – it would be helpful if OPUR could do a preliminary
             review and let us know about any issues as soon as possible rather
             than waiting until the end of the 60-day time period.
      •      Examinations – it would be helpful if the examination staff could send
             its list of routine data requirements (e.g., organization charts, U-13-
             60s) 60 days prior to the first initial request deadline. Company

__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                             Page 11


             specific, detailed requests could then more easily be addressed in the
             typical three-week turnaround deadline.
      •      Examinations - it would be useful if OPUR devised an examination
             plan describing the topics under review and shared it with companies
             subject to review. This would help us to be more prepared and ensure
             the availability of key staff.
      •      It would be helpful if OPUR gave the registrants more lead time to
             respond to the 70 or so initial examination requests. One month is not
             sufficient.
      •      OPUR staff verbally asked several questions that we provided written
             answers. It was clear that OPUR did not read all of the initial
             examination request answers.


Management Response to Survey
OPUR disagreed that there is a lack of consistent and uniform guidance regarding
governance [cost] allocation issues. OPUR contends that it has consistently raised the
same solution to cost allocation issues where the type of service is very similar between
registrants. Furthermore, OPUR issued guidance in June 2001 to registrants describing
corporate governance costs. The majority of corporate governance findings result in
reallocations between parent holding companies and its subsidiaries.

Such findings, however, are proprietary and confidential, and recommendations are
designed to fit the specific component of cost that comprises the service being rendered.

             Recommendation P
             OPUR should review the above comments and take action, as appropriate.




__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
                                                                                                                                                 Appendix A


OPUR Staffing Levels: 1983 - 2003



                                                                         Financial                                               Support              Total Number of
            Year                         Attorneys                       Analysts                  Accountants                    Staff                Staff in OPUR

       1983                 9                   4                                                             0                        4                             17
       1984                 9                   4                                                             0                        4                             17
       1985                 8                   3                                                             0                        3                             14
       1986                 9                   3                                                             0                        3                             15
       1987                 10                  3                                                             0                        3                             16
       1988                 9                   3                                                             0                        2                             14
       1989                 9                   3                                                             0                        2                             14
       1990                 12                  3                                                             1                        2                             18
       1991                 16                  3                                                             1                        2                             22
       1992                 16                  3                                                             1                        2                             22
       1993                 15                  3                                                             2                        2                             22
       1994                 16                  3                                                             2                        2                             23
       1995                 16                  3                                                             2                        2                             23
       1996                 17                  2                                                             1                        2                             22
       1997                 18                  1                                                             1                        2                             22
       1998                 18                  1                                                             1                        2                             22
       1999                 18                  1                                                             1                        2                             22
       2000                 18                  1                                                             1                        2                             22
       2001                 18                  1                                                             3                        2                             24
       2002                 17                  1                                                             3                        2                             23
       2003                 17                  1                                                             3                        2                             23
Figures based on full-time equivalent staffing levels.

Source: OPUR




__________________________________________________________________________________________________________________________________________________________________

OFFICE OF PUBLIC UTILITY REGULATION (AUDIT 372)                                                                                               October 20, 2003
